IN THE SUPREME COURT OF THE UNITED STATES
___________
No. 19-373
JAMES WALKER, PETITIONER
v.
UNITED STATES OF AMERICA
___________
MOTION FOR LEAVE TO DISPENSE
WITH PREPARATION OF A JOINT APPENDIX
___________
Pursuant to Rule 26.8 of this Court, petitioner respectfully
seeks leave to dispense with the requirement of a joint appendix
in this case.

Petitioner is authorized to state that counsel for

the United States agrees that a joint appendix is unnecessary.
The question presented is whether a criminal offense that can
be committed with a mens rea of recklessness can qualify as a
“violent felony” under the Armed Career Criminal Act, 18 U.S.C.
924(e).

The opinions of the United States Court of Appeals for

the Sixth Circuit and the United States District Court for the
Western District of Tennessee are included in the appendix to the
petition for a writ of certiorari.

The parties do not believe

that any other portion of the record merits special attention that
warrants the preparation and expense of a joint appendix.

Accord-

ingly, a separate joint appendix would not materially assist in
the Court’s consideration of the case.

For the foregoing reasons,

the motion to dispense with the requirement of a joint appendix
should be granted.

2

Respectfully submitted.
KANNON K. SHANMUGAM
Counsel of Record
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
December 5, 2019

